No. ________
Kelli Ward, Petitioner
v.
Constance Jackson, et al., Respondents
AFFIDAVIT
On this 11th day of December, 2020, I hereby certify that this Petition for
Writ of Certiorari was hand delivered to the Supreme Court of the United States. I
further certify that I have served this same date the required copies via USPS First
Class Mail and email to the counsel of record listed below:
Sarah R. Gonski
PERKINS COIE LLP
2901 North Central Avenue, Suite 2000
Phoenix, Arizona 85012-2788
SGonski@perkinscoie.com

Roopali H. Desai
COPPERSMITH BROCKELMAN PLC
2800 North Central Avenue, Ste. 1900
Phoenix, Arizona 85004
rdesai@cblawyers.com

Thomas P. Liddy, Esq.
Maricopa County Attorney’s Office
225 West Madison Street
Phoenix, Arizona 85003
Telephone (602) 506-8541
Facsimile (602) 506-4317
ca-civilmailbox@mcao.maricopa.gov
liddyt@mcao.maricopa.gov

Solicitor General of the United States
Room 5616, Department of Justice
950 Pennsylvania Ave., N. W.
Washington, DC 20530-0001
supremectbriefs@doj.gov

/S/ JOHN D. WILENCHIK
JOHN D. WILENCHIK
DENNIS I. WILENCHIK
WILENCHIK & BARTNESS
2810 N. THIRD ST.
PHOENIX, AZ 85004
(602) 606-2810
JACKW@WB-LAW.COM
COUNSEL FOR PETITIONER

